            I~SPECfOR   GENERAL




            UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, D.C. 20436
      November 20, 1990


                                  U91Df U IUD8I! IOiliUI.AIIOR
.,_                                      Mm   IIIQIHQR


      This review was scheduled because Federal regulations require that a detailed
      evaluation of agency financial systems or subsystems be conducted on a cyclical
      basis , not to exceed every three years.     The budget process, a financial
      subsystem, had never been audited.     The objectives of this review were to
      evaluate the policy and procedures for budget formulation and execution to
      identify any areas of non-compliance with applicable laws, regulations and
      guidelines, improvements to internal controls or increased efficiency.

      The review was conducted by Cotton & Company in accordance with the Government
      Auditing Standards issued by the Comptroller General of the United States. The
      auditors findings fell into two broad categories: budget formulation and budget
      execution and funds control. The results of their review are presented as an
      attachment to this report.
      The auditors found that the system of internal accounting control was sufficient
      to meet the objectives of the budget formulation and execution system insofar
      as those objectives pertain to the prevention or detection of material errors
      or irregularities.    Several non-material conditions, discussed on pages 6
      through 8 of the report, where internal controls could be improved are:

                  The accounting system does not formally incorporate commitments;

                  Cost center managers occasionally did not certify fund availability
                  on overtime forms nor was documentation on file to indicate that
                  responsibility had been delegated to an alternate;

                  Travel authorizations for Commissioner travel are, on occasion,
                  charged to travel funds allotted to the Office of Operations, without
                  the appropriate cost center manager's certification;

                  Budget allocations are not always entered into the accounting system
                  in a timely manner; and

                  A formalized process does not exist for a periodic review-<>f~­
                  obligations. This is a joint responsibility of the Office of Finance
                  and Budget and cost center managers to determine if recorded
                  obligations are still valid and if billings are anticipated.
     Recommendations relating to the findings are presented on pages 8 and 9 of the
     report. We recommend that the Director of Administration take appropriate steps
     to implement the following recommendations:
                 Consolidate the five budget calls into a reduced number of requests
                 for budget information;
                 Incorporate, where appropriate, fund commitments into the accounting
                 system in advance of their becoming valid obligations;

::               Process overtime forms and other obligating documents only when they
                 contain certification by a cost center manager or by a designated
                 alternate for whom a written delegation is on file;

                 Coordinate the processing of travel authorizations for the
                 Commissioners' offices with the appropriate cost center manager to
                 ensure that funds are available before travel is initiated;
                 Enter all current budget allocation information into the accounting
                 system in a more timely manner; and
                 Coordinate with cost center managers on a scheduled and timely basis
                 to reduce obligated funds that are not expected to be needed to the
                 extent originally anticipated.

     The auditors also identified several matters during the review that they
     considered important enough to be brought to management's attention because they
     represent areas for improving the Commission's system of budgeting and internal
     controls. These are discussed on pages 10 through 12 of the report.
     The Director of Administration generally concurred with the four findings and
     recommendations on budget execution and funds control, has implemented corrective
     action on one finding and has plans for implementing the other recommendations.
     He also considered the other matters brought to management's attention and
     implemented or made plans for action.

     The Director disagreed with our recommendation to consolidate the five budget
     calls. He stated these were mostly calls for information rather than budget
     calls and were necessary. We accept this response but encourage the Director
     to reconsider this recommendation in the future considering the multiple comments
     received from Commission managers for fewer requests for information.
     The Director's comments on recommendations and other matters with which he
     disagreed and our responses are presented on pages 9, 10, 12 and 13 of the
     report. The Director's comments are presented in their entirety as an appendix
     to the report.
                                                             Attaclnnent




                                REFORT ON THE

                        INTERNAL CONTROL REVIEW OF THE
                                UNITED STATES
                        INTERNATIONAL TRADE COMMISSION
                   BUDGET FORMULATION AND EXECUTION SYSTEM




Prepared by:

Cotton & Company
Certified Public Accountants
Alexandria, Virginia
                                            COTTON &COMPANY          Ct:RTIFIEI > Pum.1c   Accou:-...-r.\:-.:Ts



D.wn1      L Conn'. CP,\                        :;~;-.;.,   '\ Buw/1'""' C:l'r\                     J{, •!'! W! j ! I I'-IUil, (:t':\   ~ \IIP~I'II.:\o~IR.\.(.J',\
Ct~.\1<!   ,..., H.w\, . ,j(, · Cl'A            '1·   ",.! \\' Cn ,,,,.!,. <:1',\                   "''''!'\\.l,!•!JI', CT-\                              .\
                                                                                                                                        ::I! ·.I' RI!P ~:!'




                                                                                    August 9, 1990


                 Ms. Jane E. Altenhofen
                 Inspector General
                 U. S. International Trade Commission
                 500 E Street, SW
                 Room 220
                 Washington, DC 20436

                 Dear Ms. Altenhofen:

                     We conducted a study and evaluation of the United States International
                Trade Commission's (ITC) budget formulation and execution system in effect as
                of August 9, 1990. Our review was limited to controls pertaining to:

                               •       Developing, approving, and submitting the annual ITC budget
                                       estimate, including evaluating assumptions upon which estimates
                                       are made.

                               •       Developing and approving the annual ITC expenditure plan.

                               •       Apportioning and allocating funds appropriated to ITC.

                               •       Ensuring that ITC does not obligate or disburse funds in excess
                                       of those funds appropriated.

                               •       Certifying fund availability for processing transactions that
                                       obligate and expense funds appropriated to ITC.

                     Our study and evaluation was performed in accordance with guidelines and
                standards established by the American Institute of Certified Public Accoun-
                tants; Office of Management and Budget; Department of the Treasury; and U.S.
                General Accounting Office. This study and evaluation was more limited than
                would be necessary to express an opinion on ITC's system of internal control
                taken as a whole.

                      ITC's management is responsible for establishing and maintaining a system
                of internal controls within the budget formulation and execution system. In
                fulfilling this responsibility, estimates and judgements by management are
                required to assess the expected benefits and related costs of control proce-
                dures. The objectives of a system of internal control are to provide manage-
                ment with reasonable, but not absolute, assurance that assets are safeguarded
                against loss from unauthorized use or disposition, and that transactions and
                program management activities are executed in accordance with management's
Ms. Jane E. Altenhofen
Page 2


authorization and, where appropriate, recorded properly to permit the prepara-
tion of financial reports in accordance with generally accepted accounting
principles and agency policies and procedures.

      Because of inherent limitations in any internal accounting control
system, errors or irregularities may nevertheless occur and not be detected.
Also, projection of any evaluation of the system to future periods is subject
to the risk that procedures may become inadequate as a result of changes in
conditions, or that the degree of compliance with the procedures may deterio-
rate.

     The specific control objectives associated with the ITC budget formula-
tion system are as follows:

     •    Budget estimates are prepared and approved in accordance with
          laws, regulations, and management policy.

     •    Assumptions, such as caseload figures and lapse rate, from
          which the budget estimates are derived, are appropriate and
          supported.

     The specific control objectives associated with the ITC budget execution
system are as follows:

     •    Appropriated funds are apportioned, allocated, and monitored to
          ensure the rate of expenditure will not necessitate requesting
          supplemental funds.

     •    Proper certification of fund availability is made before a
          commitment, obligation, or expenditure is issued.

     •    The accounting system accurately records commitments, obliga-
          tions, and expenditures in a timely manner to prevent
          over obligation or disbursement of appropriated funds.

     Our study and evaluation made for the limited purposes described in the
first paragraph of this report would not necessarily disclose all material
weaknesses in ITC's internal control system. Accordingly, we do not express
an opinion on ITC's internal control system taken as a whole. Based on our
study and evaluation of the specific budget formulation and execution system
control objectives listed above, however, the internal accounting control
system in effect as of August 9, 1990, was sufficient to meet the objectives
stated above insofar as those objectives pertain to the prevention or detec-
tion of errors or irregularities in amounts that would be material in relation
to the budget formulation and execution system data. We did, however,
identify certain conditions that we believe warrant corrective action. These
are presented in the Audit Results section of the accompanying report.
Ms. Jane E. Altenhofen
Page 3


        We conducted our fieldwork in Washington, DC, from July 9 to August 9,
1990.

     We discussed the results of our review with the Director, Office of
Administration; the Director, Office of Finance and Budget; and other head-
quarters personnel responsible for the policy direction and overall-management
of the processes we reviewed. Their specific comments are incorporated into
this report as appropriate.

     The accompanying report describes our objectives, scope, and methodology
and the resultant findings and other conditions, conclusions, and recommenda-
tions. It is intended solely for ITC's information and use and should not be
used for any other purpose.

                                        Very truly yours,

                                        COTTON & COMPANY



                                  By:    I~ P.    H{ kQ~<-
                                        Kevin P. McFadden, CPA

mbp
Enclosure
                              CONTENTS



 I   INTRODUCTION
     Background                                      1
     Objectives                                      2
     Scope                                           3
     Methodology                                     4

II   AUDIT RESULTS
     Findings                                        5
       Budget Formulation                            5
       Budget Execution and Funds Control            5
     Conclusions                                     8
       Budget Formulation                            8
       Budget Execution and Funds Control            8
     Recommendations                                 8
       Budget Formulation                            8
       Budget Execution and Funds Control            8
     Commission Comments                             9
       Budget Formulation                           10
       Budget Execution and Funds Control           10
     Other Matters For Management's Consideration   10
       Budget Formulation                           11
       Budget Execution and Funds Control           11
     Commission Comments                            12
       Budget Formulation                           12
       Budget Execution and Funds Control           13
     Appendix
       Commission's Response
                                 REPORT ON THE
                        INTERNAL CONTROL REVIEW OF THE
                                 UNITED STATES
                       INTERNATIONAL TRADE COMMISSION'S
                    BUDGET FORMULATION AND EXECUTION SYSTEM

                             PART I:   INTRODUCTION


     In this part, we discuss study and evaluation background, objectives, -
scope, and methodology.


BACKGROUND

      The International Trade Commission (ITC) is an independent, bipartisan,
quasi-judicial U.S. Government agency that, upon request, advises the Presi-
dent and Congress on tariff matters and conducts investigations relating to
the impact of imports on domestic industries. The Commission contributes to
the development of U.S. trade policy, but is not charged with a policy-making
role.

     The Commission has an approved staffing level of 502 permanent positions
(includes six Commissioners, one of whom is designated Chairman) and a Fiscal
Year (FY) 1990 budget of $38,477,000. Approximately 67 percent of ITC's
appropriation is for personnel, compensation, and benefits and another 15
percent is for rent.

     Although the ITC budget is not subject to review by the Office of
Management and Budget (OMB), the Commission does follow OMB guidance set forth
in Circulars A-11, Preparation and Submission of Budget Estimates, and A-34,
Instructions on Budget Execution.

     The Chairman, subject to a majority vote of the Commission, determines
budget policy (USITC Directive 2100, Chapter 10, Budget Policies and Proce-
dures) and establishes budget guidelines for the annual budget preparation.

     The Director, Office of Finance and Budget (OFB), is responsible for
developing an expenditure plan for the following fiscal year and an appropria-
tions request for the budget fiscal year based on Commission policy and
guidelines, adhering to legal requirements, and submitting these budget
estimates to the Chairman for Commission approval. In preparing these budget
estimates, the OFB director obtains detailed estimates of requirements from
office directors and cost center managers and works closely with these
officials in establishing budget amounts.

     The Chairman, subject to approval by a majority vote of all Commis-
sioners, formulates all budgets, budget supplementals, and budget amendments.

     The OFB director performs liaison with the OMB, prepares documents in the
style and formats prescribed by OMB, and submits selected documents in
voluntary compliance with OMB directives by the established due dates to be

                                       1
included, without rev~s~on, in the President's budget or budget supplementals.
In addition, the OFB director complies with other legal requirements in
preparing documents for submission directly to Congress and performs liaison
between the Commission and the Congressional committees on budget matters.

     Throughout the fiscal year, the budget-related functions of OFB are to:

     •       Keep the Commission, office directors, and cost center managers
             fully advised on ITC's budget performance.

     •       Furnish technical advice and assistance to the Commission,
             office directors, and cost center managers in the maintenance
             of position controls.

     •       Perform external liaison with other Federal agencies, Congres-
             sional committees, and private organizations concerning finan-
             cial and budget matters.

     The Chairman appoints cost center managers and allocates funds to them
through the Commission expenditure plan process. The cost center managers are
responsible for authorizing fund expenditures and maintaining fund allocations
within the expenditure plan allocation instructions. A cost center manager
approves funds for personnel actions (SF-52), travel authorizations (ITC Form
005), overtime requests (GSA Form 544), training requests (SF 182) and, where
applicable, other categories of expenses within the budgets that are allocated
to them through the expenditure plan process. The policy and procedures for
establishing cost center managers and their responsibilities are set forth in
USITC Directive 2103 (Cost Center Managers).

     A related aspect of the budget execution process is the Activity Report-
ing System (ARS). An employee activity-work summary is submitted by Commis-
sion managers for each employee every 4 weeks. These data are used to monitor
agency resources and assist in budget formulation. Various summary reports of
ARS data are supplied to agency managers. The ARS is not part of the account-
ing or payroll systems and is only intended for use in providing information
on the "direct program time 11 of ITC staff. OFB provides reporting instruc-
tions and coding to agency managers and maintains "costing" and "activity"
data in the system.

     OFB conducted the most recent Internal Control Review (ICR) of the budget
execution cycle in FY 1988. No weaknesses were identified. The budget
process is also reviewed annually as part of the Federal Managers' Financial
Integrity Act (FMFIA) Section 4 report. No weaknesses were identified during
the reviews performed for FY 1987, 1988, and 1989.


OBJECTIVES

     We conducted this study and evaluation of the ITC budget formulation and
execution internal control systems to: (1) evaluate the adequacy and effec-
tiveness of internal controls and procedures and (2) determine compliance with
applicable laws, regulations, and guidelines.

                                         2
     The specific audit objectives were to:

     •    Evaluate the preparation of budget estimates, including the
          appropriateness of assumptions, such as the lapse rate, and
          reporting statistics, such as the caseload figures.

     •    Determine if ITC budget practices comply with the applicable
          provisions of OMB Circulars No. A-ll and No. A-34.

     •    Review and evaluate the cost center management program to
          determine if the program's policy and procedures are being
          followed.

     •    Review the ARS to determine if it is functioning as intended
          and to what extent it assists in budget preparation and execu-
          tion activities.

     •    Evaluate computer system controls as they relate to the budget
          formulation and execution processes.




      We conducted our review at ITC headquarters in Washington, DC, between
July 9 and August 9, 1990. The review focused on the budget processes that
resulted in the preparation of the FY 1990 budget and the FY 1991 expenditure
plan.

    We interviewed selected cost center and office managers to determine:

     •   The amount of guidance received from OFB in the preparation of
         budget estimates.

     •   How planning factors and budget estimates are developed.

    •    The cost categories for which expenditure levels are received
         and how reprogramming is effected.

    •    If cost center managers suballocate their allocated funds and,
         if so, the extent and authority provided.

    •    Delegation procedures when cost center managers are absent.

    •    Who certifies funds for transactions to obligate or expense ITC
         funds.

    •    What reports cost center managers are provided with and how
         they use them to manage their funds and prepare budget esti-
         mates.

    •    How inputs to the ARS are generated and what use they make of
         the ARS reports.

                                      3
METHODOLOGY

     We gathered data for review through structured interviews, question-
naires, sample tests, and analysis of documents and reports identified as
being critical to the budget formulation and execution system.

     The major guidelines and operating regulations we used to determine the
adequacy of internal controls and procedures and to assess the degree of ITC's
compliance with the relevant requirements were:

     •    ITC Policy Directives

               2100  Budget Policies and Procedures
               2101  Funds Control Regulations
               2102  Financial Management System Policies
               2103  Cost Center Managers
               3601  Contracting and Procurement Policy and
                     Procedures
               3601A Advance Procurement Planning System
               4304 Compensatory Time and Overtime

     •    OMB Circular No. A-11, Preparation and Submission of Budget
          Estimates

     •    OMB Circular No. A-34, Instructions on Budget Execution

     •    GAO Standards for Internal Controls in the Federal Government

     This audit was conducted in accordance with the Comptroller General's
Government Auditing Standards (1988 revision).




                                      4
                                 REPORT ON THE
                         INTERNAL CONTROL REVIEW OF THE
                UNITED STATES INTERNATIONAL TRADE COMMISSION'S
                    BUDGET FORMULATION AND EXECUTION SYSTEM

                            PART II: AUDIT RESULTS


     In this part, we present findings, conclusions, and recommendations.   We
also discuss other matters for management's consideration.


FINDINGS

     We noted certain conditions in the internal accounting control system
that are not individually considered material weaknesses; collectively,
however, they warrant management's attention and corrective action. A
weakness in internal accounting control is a condition in which the specific
control procedure, or the degree of compliance with the procedure, is not
sufficient to achieve a specific control objective; that is, errors or
irregularities may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. These
conditions are discussed in the following sections.


Budget Formulation

     The budget provides a systematic process through which (1) management can
articulate its plans, policies, and priorities; (2) offices can articulate
what resources they believe will be needed to implement plans; and (3)
management can control operations by periodically comparing planned and actual
expenditures.

     ITC offices are instructed to respond to separate calls for budget
information concerning requirements for library items, data automation,
procurement, training, and budget estimates. This multiplicity of requests
for budget information does not result in an effort that is as coordinated as
it should be and causes concern among cost center and other ITC managers.
Controls over ITC's budget formulation can be improved, if budget requests are
consolidated.


Budget Execution and Funds Control

     Budget execution provides a basis for measuring both program and finan-
cial performance which includes measuring the cost--dollars, staff, equipment,
supplies, and facilities--of ITC's programs. The information developed in
this phase of the financial management process is perhaps the most crucial,
because it becomes the basis, at least in part, for decisions made in the
other three phases--planning and programming, budgeting, and audit and




                                      5
evaluation. Accurate information and effective internal controls are neces-
sary to ensure that expenditures remain within the limits of the ITC appropri-
ation, that maximum benefit is derived from funds expended, and that funds are
expended in accordance with management's desires.

     Controls over ITC's budget execution and funds control system can be
improved in the following areas:

1.   The current accounting system does not formally incorporate commitments
     (proposed obligations) and, therefore, does not provide reports showirig
     the total amount of uncommitted funds. Certain off-line manual tracking
     procedures do, however, provide the capability for insight into committed
     funds for services, supplies, and equipment. The systematic accumulating
     of commitments in the accounting records in advance of their becoming
     valid obligations provides for more effective financial planning, includ-
     ing fund control (GAO Manual, Title 7, Chapter 2, Paragraph 3.4.E). This
     commitment procedure is particularly useful when a significant delay
     exists between the initial prevalidation and the later actual obligation
     of funds. For example, personnel actions (SF-52) to fill vacant posi-
     tions are currently processed through OFB in the initial phase of the
     accession process; however, no further coordination exists with OFB
     before the accession is made.

     [NOTE: ITC is scheduled to convert its accounting system to the Federal
     Financial System (FFS) in FY 1991. One of the features of this new
     system is the capability to record commitments.]

2.   Cost center managers did not certify fund availability on 4 of 36
     overtime forms (GSA 544) we sampled nor was documentation on file to
     indicate that the cost center managers' responsibility had been delegated
     to an alternate. USITC Directive 2103 (Cost Center Managers), paragraph
     Sb, requires cost center managers to sign overtime requests certifying
     fund availability. Paragraph 4 of the same directive permits temporary
     delegations of cost center manager responsibility, but delegation must be
     in writing. OFB processes overtime forms if they are signed by someone
     they know to be in a management position but who is not necessarily a
     cost center manager or someone delegated cost center manager responsi-
     bility. Obligating documents should not be processed without a certifi-
     cation from a cost center manager or hisfher delegatee. Failure to·do so
     could result in overtime being worked and paid for when funds are not
     available. This situation also applies to other types of obligating
     documents that should only be processed when they contain the proper
     certification.

3.   Travel authorizations (ITC Form 005) for Commissioner travel are, on
     occasion, charged to travel funds allotted to the Office of Operations,
     without the appropriate cost center manager's certification. USITC
     Directive 2103, paragraph Sc, and the Travel Handbook (USITC Directive
     2301.1, paragraph Al), require cost center manager certification of
     travel authorizations. Three of 40 travel authorizations tested were for
     Commissioner travel charged to the Office of Operations funds with no
     indication on the authorization form that the applicable cost center
     manager had been notified. Cost center managers must have control over

                                      6
     the funds they have been allotted. Without this control, the authoriza-
     tions to expend funds could exceed the fund balance. This procedure
     could result in overexpenditure of funds appropriated to ITC.

4.   Budget allocations are not always entered into the accounting system in a
     timely manner. Changes are allowed to accumulate until a "sufficient"
     amount are ready for entry into the accounting system. The resulting
     cost center reports then reflect budget allocations that do not agree
     with previously issued budget reports. The overall goal of accounting
     and financial reporting in the Federal Government is to provide informa-
     tion that is useful. One of the qualities of useful information that
     provides maximum benefit is that it be timely. Financial data should be
     recorded as soon as practicable after the occurrence of a transaction
     (GAO Manual, Title 2, Appendix I, page 8).

5.   OFB does not have a formalized process for a periodic review of obliga-
     tions by coordinating with cost center managers to determine if recorded
     obligations are still valid and if billings are anticipated for goods or
     services. Cost center managers should be required to advise OFB at
     specified times of the status of unliquidated obligations so that
     determinations can be made concerning whether the obligation should
     continue to be reflected, or if the funds committed for the transaction
     can be deobligated. This action by OFB would involve all unliquidated
     obligations relating to travel, training, and other types of goods and
     services (GAO Manual Title 7, Chapter 3, Paragraph 3.7.A).

     We observed large amounts of deobligations occurring one and two years
     after the close of the fiscal year for which the funds were obligated.
     For example, the annual appropriations for FYs 1986, 1987, and 1988 were
     deobligated by $378,827, $224,858, and $224,977, respectively. These
     deobligations occurred one year after the end of the fiscal year for
     which the funds were appropriated. Also, FY 1986 and 1987 funds of
     $113,786 and $126,194 were deobligated at the end of the second fiscal
     year for which the funds were appropriated. We recognize that, of
     necessity, certain funds will be deobligated in years subsequent to the
     year for which the funds were appropriated. We believe, however, that if
     ITC should be placed in a more restrictive budget situation, it would
     find it beneficial to periodically, and specifically in the fourth
     quarter of the fiscal year, have the cost center managers scrutinize the
     status of all recorded obligations for the purpose of identifying funds
     that can be deobligated and be made available for other uses.

     In a limited sample of unliquidated obligations from prior years, we
     observed a need for better coordination among those responsible for the
     procurement activity, receiving goods and services, and OFB. In one
     instance, OFB estimated the amount of an obligation for a publication
     order from the Government Printing Office to be more than 100 times the
     total actual price. (The amount of the obligation was $10,000 and the
     actual cost of the publication would have been $75). The order was never
     processed, but at the time of our review, the obligation had remained on
     the record for 22 months. We also observed numerous instances of the
     deobligation of funds for travel orders and training commitments in years
     subsequent to the year for which the funds were appropriated. The

                                      7
     cancelation of these travel and training commitments should have been
     known at the close of the fiscal year in which the funds were obligated
     and should not have remained in the records. Cost center managers should
     inform OFB in a more timely manner of the status of obligations, espe-
     cially at fiscal yearend.


CONCLUSIONS

     Our conclusions follow:


Budget Formulation

     No material findings were discovered durin~ this audit. The budget
formulation system appears to be functioning properly with the exception of
one recommendation for improvement.


Budget Execution and Funds Control

     No material findings were discovered during this audit. The budget
execution and funds control system is meeting the needs of ITC management. As
noted in this report, we did observe certain minor areas where the process
could be improved.


RECOMMENDATIONS

     Our recommendations to strengthen ITC's internal controls are presented
below. These recommendations parallel the findings in Part II.


Budget Formulation

     OFB should consolidate the five budget calls into a reduced number of
requests for budget information. This consolidation should result in all
budget information being processed in a more compressed timeframe; this will
more appropriately meet the needs of cost center and other ITC managers. It
will also assist in the timely preparation of the ITC annual budget.


Budget Execution and Funds Control

1.   OFB should incorporate, where appropriate, fund commitments into the
     accounting system in advance of their becoming valid obligations. We
     further recommend that after personnel selections are made, but before an
     offer of a position at ITC is made, the Office of Personnel coordinate
     with OFB to ensure funds are still available.

2.   Overtime forms and other obligating documents should be processed only
     when they contain certification by a cost center manager or by a desig-
     nated alternate for whom a written delegation is on file within OFB.

                                      8
3.   The Commissioners' offices should coordinate the processing of travel
     authorizations with the appropriate cost center manager. This coordina-
     tion would apprise the cost center manager of planned travel and would
     ensure that funds are available before travel is initiated.

4.   OFB should enter all current budget allocation information into the
     accounting system in a more timely manner so that the most current and
     accurate data are disseminated to ITC management.

5.   OFB should coordinate with cost center managers on a scheduled~and timely
     basis (especially during the fourth quarter) to reduce obligated funds
     that are not expected to be needed to the extent originally anticipated.
     The Procurement Division and those ITC organizational units requesting
     goods and services should determine the estimated cost of those goods and
     services in lieu of OFB occasionally being required to estimate the costs
     for other units' procurements.

     To provide assurance that funds committed for staff travel and training
     are deobligated, when it becomes apparent that the travel or training
     will not occur or will not occur to the extent anticipated, OFB should
     require the following:

          •    A travel order amendment (OFB to determine the form)
               indicating that a trip has been canceled or reduced in
               scope.

          •    Notification by cost center managers when funds obligated
               for training will not be expended to the extent anticipat-
               ed.

     Processing these notifications in a timely manner will provide a basis
     for deobligating the unneeded travel and training funds, provide appro-
     priate documentation for the action taken, and result in more current
     accounting records.


COMMISSION COMMENTS

     The Office of Administration (Office) responded to each recommendation we
made for the findings and each observation we made for other conditions we
identified; its complete comments are in the appendix. Although the Office
agreed with most recommendations and observations, it did not agree with all
of them. When it did not agree, we cited the section to which the recommenda-
tion or observation applied, summarized the disagreement, and provided our
additional comments. The Office has initiated certain improvements in its
budget formulation and execution system in response to our discussions and
recommendations.




                                      9
Budget Formulation

     The Office disagreed with our recommendation that OFB should consolidate
the five budget calls into a reduced number of requests for budget informa-
tion. The Office stated that four of the five items we referred to as "budget
calls" (requests for information on the needs for training, books, subscrip-
tions and periodicals, and advance procurement planning) are data requests and
not budget calls in the same sense as the one issued by OFB. We are aware of
the nature of these requests and the use that cost center managers make of
this information in arriving at their fund requests. It is our view that a
consolidation of the requests for budget information would not adversely
impact the nature and use of the information, but would compress the timeframe
for obtaining the necessary budget information, allow ITC managers to consider
all funding needs and their relationships at one time, and assist in the
timely preparation of the budget.

     We based our recommendation on comments we received from certain ITC
managers who were concerned about the number and timing of budget calls and
our view that a reduced number of requests for budget information would
simplify and expedite the process. We encourage OFB to consider our recommen-
dation for streamlining the process.


Budget Execution and Funds Control

     The Office agreed with four of the five recommendations and with one
portion of the remaining recommendation. It only partially agreed with our
suggestion that the Office of Personnel coordinate with OFB to ensure fund
availability after personnel selections are made, but before an offer of a
position at ITC is made. The Office reiterates the existing responsibilities
of the cost center managers and OFB as they relate to functioning within the
resources made available to them. It is our view, however, that these
procedures do not require the necessary coordination at the time the offer of
a position is made. It agreed that the Office of Personnel should coordinate
new offers of positions with OFB, and stated that procedures to accomplish
this will be developed between the OFB, the Office of Personnel, and cost
center managers.

     The procedures that the Office stated will be developed should provide
for the necessary element of coordination.


OTHER MATTERS FOR MANAGEMENT'S CONSIDERATION

     The following sections detail matters identified during the review that
we consider important enough to be brought to management's attention, because
they represent areas for improving ITC's system of internal control.




                                      10
Budget Formulation

1.   The FY 1990 budgeted vacancies (lapse rate) differed significantly from
     both the expenditure plan and actual experience to date for FY 1990; this
     also occurred in FYs 1987, 1988, and 1989. (We did not obtain informa-
     tion for fiscal years prior to 1987.) Cost center managers are allotted
     funds for personnel salaries (OFB determines the amount based on the
     approved staffing plan). If a cost center does not maintain its staff at
     the approved level, the cost center accumulates excess funds that can be
     reprogrammed. More precise fund control would exist if ITC managemen~
     would allocate only a specified number of positions to each cost center
     manager and have OFB be responsible for fund control. If the positions
     are not filled, OFB can more readily reallocate funds to maximize
     fulfillment of ITC's overall requirements. This approach would require
     ITC management to determine and include in the expenditure plan the
     number of positions to be allotted by cost center managers.

2.   Caseload data are used in support of budget submissions to Congress. The
     ITC caseload, as a factor for deriving budgets, does not provide the most
     appropriate or meaningful basis on which to base an appropriation
     request. Cases vary greatly in length, complexity, and staff years to
     complete and are difficult to forecast. While the caseload figures
     contained in the budget requests are finite in number, they are estimates
     at best. Because the disparity in staff years devoted to individual
     cases varies so greatly, they do not provide the most meaningful basis to
     request staff years for appropriation purposes or for allocating resourc-
     es within ITC. If ITC management would begin to emphasize staff years as
     a measure of effort, a basis for requesting appropriations, and as the
     method for allocating resources to cost center managers, we think it
     would provide a more appropriate basis for identifying levels of effort
     and for comparing emphasis in program areas over periods of time.

     We fully recognize the long-standing practice of using caseload informa-
     tion in the budget justification process and the familiarity Congress has
     with this method. Accordingly, consideration should be given to relating
     the caseload volume produced by the allocated staff years for information
     purposes. This would assist in the transition to using the more meaning-
     ful measure of staff years for appropriation requests and internal ITC
     management purposes.


Budget Execution and Funds Control

1.   The organizational level designated as cost centers throughout ITC does
     not appear consistent with the level at which funds are expended.
     Although the current cost center arrangement is effective, consideration
     should be given to designating lower organizational units, such as the
     office director level as cost center managers.   As a minimum, Office of
     Operations funds should be suballocated to those at the office director
     level, who have the responsibility for authorizing the use of ITC
     resources and, correspondingly, should have the authority to administer
     the funds related to this responsibility.


                                     11
2.   The accuracy of certain of the data being reported in the ARS is
     questionable. As noted in the Personnel and Payroll system audit, we
     found inconsistent data between the time and attendance and ARS systems.
     During interviews with cost center managers and office managers, they
     commented on problems that exist with the ARS and indicated that they do
     not rely on the output from ARS. Problems included:

     •    The options for recording direct time are too.detailed. Staff
          members often do not track their hours in as much detail as is
          provided. Instead, they often report their time on the first
          line item of a section as opposed to delineating the direct
          time as provided.

     •    We were informed that personnel in at least one office work
          many more hours than they are permitted to report. Thus,
          unreported direct hours worked affects the reported results.

     The accuracy and completeness of the reporting of staff member's direct
     and indirect time in the time and attendance system and in the ARS would
     be enhanced if it were combined into one reporting system for each SO-
     hour pay period. This combined reporting would provide ITC management
     with greater assurance that all time is accounted for. Consideration
     should also be given to having the OFB director, with the assistance of
     ITC management, evaluate the ARS coding system to provide a system that
     will be informative, easy to identify where time should be assigned, and
     reduce the number of options to which time charges can be assigned.
     These changes should result in the ARS being a more useful document for
     ITC management.

3.   The mission and function statement for OFB (ITC Directive 1021, Office of
     Finance and Budget, paragraph 10) states that OFB is responsible for
     maintaining position controls. OFB's role in this significant area is
     not clear in light of the responsibilities delegated to cost center
     managers. Consideration should be given to ~ore clearly defining what is
     expected of the OFB Director in discharging his duties related to
     position controls.


COMMISSION COMMENTS

     The Office responded to each of the other matters we identified for
management's consideration. When it disagreed, we cited the section to which
our observation applied, summarized the disagreement, and provided our
additional comments.


Budget Formulation

     The Office disagreed with our first observation that more precise fund
control would exist if ITC management were to allocate only a specified number
of positions to each cost center manager and have OFB be responsible for fund
control. The Office stated that the Commission's management philosophy is to
allocate resources to cost center managers to the maximum degree possible. It

                                      12
also stated that it is the responsibility of the cost center managers and OFB
to jointly ensure responsible fund control.

     We made our observation with the intent of providing OFB with a means for
more control over funds and to facilitate any required fund reallocation.
Although the Office does not think fund allocation is a problem at this time,
it may want to keep this observation in mind should the situation change.


Budget Execution and Fund Control

     The Office disagreed with our first observation that it should consider
designating as cost center managers lower organizational units (such as, the
office director level) than is currently the practice. The Office stated that
the Commission believes that the decision to suballocate resources is an
individual management decision and should be determined by the responsible
official (i.e., the cost center manager).

     We based our observations on comments we received from certain ITC
managers who believe that a more effective practice would be to designate
responsibility for fund management consistent with the level at which funds
are expended. It is also our view that ITC managers responsible for authoriz-
ing use of ITC funds should have responsibility for adminstering the funds.

     Because, as we mentioned, the current cost center arrangement is effec-
tive, we encourage ITC management to consider our observation should any
future management action involve any evaluation of the present system for
allocating funds.




                                     13
                                                               Appendix

                                                          AD-N-659




Uf\~rrED   STl\ TES INTERNATIONAL TRADE COtvlivliSSiCt,~

                        \•V r\SI IE\GTO~. DC   ~0436




November 2, 1990

MEMORANDUM


TO:          Inspector General

FROM:        Director, Office of

SUBJECT:     Draft Report, "Review of Budget Formulation and Execution"

As requested by your memorandum dated September 21, 1990 (IG-N-098),
submitted as an attachment to this memorandum is the Office of
Administratioii•s resp_onse to the subject draft audit report·issued on·
September 1990. In accordance with Section 11 of the USITC Directive
1701, the Commissioners have had an opportunity to comment on the
response and the Chairman has approved it.

Please call me at 252-1131 or Bill Stuchbery at 252-1135 if you have
any questions.


Attachment


cc: Director, Office of Finance and Budget
Office of Administration's Comments on the Draft Audit Report "Review
of Budget Formulation and Execution"

We have reviewed the draft budget audit report dated September 21, 1990,
and believe the audit acknowledges the soundness of the Commission's
budget formulation, execution and funds control processes. No material
weaknesses were found. Specific comments with regard to each audit _
recommendation and other matters for ~anagement's consideration are as
follows.
Audit Recommendations

                           Budget Formulation
Recommendation
OFB should consolidate the five budget calls into a reduced number of
requests for budget information. This consolidation should result in all
budget information being processed in a more compressed timeframe; this
will more appropriately meet the needs of cost center and other lTC
managers. It will also assist in the timely preparation of the lTC annual
budget.
Response
DISAGREE
While it ~ay be possible to prepare one consolidated request for
information, each of these areas is unique and the process is simpler and
more responsive if the information is discussed with and submitted
directly to the responsible agency-wide cost center manager. Also the
preparation of individual requests for information allows for different
due dates which is important in that it enables agency-wide cost center
managers time to prepare a consolidated budget request.
The five "budget calls" cited in the draft audit report include: (1) an
office-by-office and/or cost center budget request which enables the
Office of Finance and Budget and the Commission to evaluate the
requirements of each office and each program in determining a overall
agency budget; (2) an estimate of group training requirements which
enables the Director, Office of Personnel to determine an agency-wide
training budget request; (3) an estimate of book and subscription
requirements which enables the Director, Library Services to determine an
agency-wide book and periodical budget; (4) an estimate of automated
data systems requirements which enables the Director, Office of
Information Resources Management and the Information Resources
Steering Committee to recommend an agency-wide information resources
management budget; and (S) advance procurement planning documents for
the Procurement Division of the Office 9f Management Services, which
enables them to plan the procurement process for the coming year. This is
required by lTC Directive 3601.
These data requests for training, boo~s, subscriptions, and periodicals,
automated information services, and advance procurement planning are
not considered "budget calls" in the same sense as the one issued by the
Office of Finane~ and Budget, but requests for information by cost-
center managers with agency-wide responsibilities. By collecting
information directly, agency-wide cost center managers are available to
discuss requirements with applicable office directors, and better
understand each office's specific needs. These agency-wide cost center
managers are responsible for evaluating the data collected, and the
preparation of a complete and timely response to the OFB "budget call"
that meets the needs of the e·ntire Commission in an organized, planned,
and fiscally responsible manner.

                   Budget Execution and Funds Control
I.a. Recommendation
OFB should incorporate, where appropriate, fund commitments into the
accounting system in advance of their becoming valid obligations.
Response
AGREE
The Commission's in-house accounting system, which does not include a
commitment system, was approved by the General Accounting Office
when it was installed several years ago. Subsequently, in lieu of
commitments being included as part of the accounting system a separate
dbase commitment system was developed and implemented within the
Office of Finance and Budget.
In May, 1990, th~ Commission approved the conversion of its accounting
operation to a new system for fiscal year 1991. The new accounting ·
system now being implemented, the Federal Financial System, inclu.des a
commitment module which the Commission intends to implement as soon
as it is practicable.
Estimated completion date- during FY 1991.

l.b. Recommendation
We further recommend that after personnel selections are made, but
before an offer of a position, the Office of Personnel .should coordinate
with OFB to ensure· funds are still available.
Response
PARTIALLY AGREE
The Commission allocates full staffing levels to cost center managers
based upon the authorized level of 502 positions, however funding for
these positions is allocated at a lower than full staffing level. Commission
cost center managers are responsible for remaining within the resources
allocated to them, therefore it is incumbent upon cost center managers to
ensure funds are available prior to the offering of a position. It is also
incumbent upon the Office of Finance and Budget to ensure that the
overall agency remains within its available level of resources. In addition,

                                     2
the mission and function statement for the Office of Finance and Budget
states that it is responsible for maintaining position controls. To ensure
that the meeting of these responsibilities are met the Office of Personnel
should coordinate new offers of positions with the Office of Finance and
Budget. Procedures will be developed between the Office of Finance and
Budget, the Office of Personnel, and cost center managers. Exceptions to
this procedure will be when .Schedule C appointments are made by
Commissioners.
Estimated completion date- September 30, 1991.

2. Recommepdatiop
Overtime forms and other obligating documents should be processed only
when they contain certification by a cost center manager or by a
designated alternate for whom a written delegation is on file within OFB.
Response
AGREE

Revised procedures on the processing of overtime documents are being
implemented as part of the audit of personnel management functions.
Revised processing procedures for other obligating documents will be
included in desk procedures for the operation of the new accounting
system.
Estimated completion date- September 30, 1991.

3. Recommendation
The Commissioners' offices should coordinate the processing of travel
authorizations with the appropriate cOst center manager. This
coordination would apprise the cost center manager of planned travel and
would ensure that funds are available- before travel is initiated.
Response

AGREE
Office of Finance and Budget desk procedures for the accounting
technicians will be updated to include instructions to ensure that staff
from Commissioners' Offices are reminded of this responsibility when
they charge travel to another cost center. This will also be emphasized
when the Travel Directive is updated.
However, it is noted that the Director, Office of Operations feels that
special circumstances exist with respect to his responsibility as a cost
center manager. In the attached memorandum of October 3, 1990, (OP-N-
063), he states: •The General Counsel has advised me that I have no
authority to deny a Commissioner or a Commissioner's staff assistants the
right to



                                     3
     charge the Office of Operations' travel funds account for travel if the
     Commissioner determines the travel is important in the conduct of the
     Commissioner's responsibilities." The General Counsel has confirmed the
     Director, Office of Operation's position in her memorandum of October
     11, 1990 (see attached memorandum GC-N-265).
     Estimated completion date- September 30, 1991.

     4. Recommendation           /


     OFB should enter all current budget allocation information into the
•'   accounting system in a more timely manner so that the most current and
'
     accurate data are disseminated to lTC management.
     Response
     AGREE
     Budget allocation and reallocation information is currently being entered
     in the accounting system on a timely basis and in accordance with current
     approval authorities. We plan to continue this process. As cited in the
     audit report, "Financial data should be recorded as soon as practicable
     after the occurrence of a transaction (GAO Manual, Title 2, Appendix I,
     page 8)". We feel that we are meeting the criteria of "as soon as
     practicable".
     Estimated completion date - completed.

     S. Recommendation

     OFB should coordinate with cost center managers on a scheduled and
     timely basis (especially during the fourth quarter) to reduce obligated
     funds that are not expected to be needed to the extent originally
     anticipated. The procurement activity and those lTC organizational units
     requesting goods and services should determine the estimated cost of those
     goods and services in lieu of OFB occasionally being required to estimate
     the costs for other units' procurements...
     Response

     AGREE
     As part of implementing the new accounting system, daily, monthly, and
     quarterly operating procedures will be developed· to include appropriate
     review of open commitments and obligations.
     Estimated completion date- September 30, 1991.




                                         4
Qther Matters For Management's Consideration
                            Budget Formulation
1. Recommendation
-.More precise fund control would exist if lTC management would allocate
only a specified number of positions to each cost center manager and
have OFB be responsible for fund control. If the positions are not filled,
OFB can more readily reallocate funds to maximize fulfillment of ITC's
overall requirements. This approach would require lTC management to
determine and include in the expenditure plan the number of positions to
be allotted by cost center managers.
Response
DISAGREE
The Commission's management philosophy is to allocate resources to cost
center managers to the maximum degree possible. It is the responsibility
of the cost center managers and the Office of Finance and Budget to
jointly ensure responsible fund control.

2. Recommendation
.-Because the disparity in staff years devoted to individual cases varies so
greatly, they do not provide the most meaningful basis to request staff
years for appropriation purposes or for allocating resources within lTC.
If lTC management would begin to emphasize staff years as a measpre of
effort, a basis for requesting appropriations, and as the method for
allocating resources to cost center mafiagers, we think it would provide a
more appropriate basis for identifying levels of effort and for comparing
emphasis in program areas over periods of time...
Response
AGREE
The Commission does, and has for many years, emphasized workyears and
work activities in its Congressional budget justifications. Caseload is used
only as part of the workload justification. We feel we already have a
proper balance of caseload and workyear data in our justifications.
Estimated completion date - completed.

                   Budget Execution and Funds Control
1. Recommendation

The organizational level designated as cost centers throughout lTC does
not appear consistent with the level at which funds are expended.
Although the current cost center arrangements is effective, consideration
should be given to designating lower organizational units, such as the

                                     5
Operations funds should be suballocated to those at the office director
level, who have the responsibility for authorizing the use of ITC resources
and, correspondingly, should have the authority to administer the funds
related to this responsibility.
Response
DISAGREE
Several years ago when the Commission moved from having all funds
centrally controlled to the cost center responsibility concept the
Commission determined that allocation to those office directors reporting
directly to the Commission was an appropriate level for mandatory
allocation of funds. These office directors were given the authority to
reallocate funding to subordinate offices within their organization,
however, this suballocation would not relieve the primary office director
from overall responsibility and control of funds allocated to them. In
addition, agency-wide cost centers were established for planning,
monitoring, and centrally controlling certain costs.
The Commission believes that the decision to suballocate resources is an
individual management decision and should be the determination of the
responsible official (ie. the cost center manager). The Director of
Operations states in his October 3, 1990, memorandum (OP-N-063) that:
"The suballocation of resources would further weaken the information
system that I need for the general management of the Office of
Operations. I currently review and approve all funds that relate to new
positions, hiring, promotions, travel, and training. Through this review
and approval process, I ensure to the degree feasible a fairness in the
conduct of personnel policies within the Office of Operations, determi~e
reasonable levels of effort in respect to the conduct of Commission's work
plans and reallocate on a temporary basis personnel, travel, and training
funds where necessary. Were all of the funds subdelegated to the
operating offices, some of the directors would feel the necessity to
consume all the funds available in order to avoid sharing unspent funds
with other operational units. Further, some subordinate offices would put
excessive focus on the management of funds rather than on the completion
of assigned studies."

2. Recommendation
The accuracy of certain of the data being reported in the ARS is
questionable. As noted in the Personnel and Payroll system audit, we
found inconsistent data between the time and attendance and ARS
systems_ The accuracy and completeness of the reporting of staff
member's direct and indirect time in the time and attendance system and
in the ARS would be enhanced if it were combined into one reporting
system for each 80-hour pay period. This combined reporting would
provide lTC management with greater assurance that all time is accounted
for. Consideration should also be given to having the OFB director, with
the assistance of lTC management, evaluate the ARS coding system to
provide a system that will be informative, easy to identify where time
should be assigned, and reduce the number of options to which time
charges can be assigned. These changes should result in the ARS being a
more useful document for lTC management.

                                    6
    Response
    AGREE
    While we disagree with the statements questioning the accuracy of the
    Activity Reporting System (ARS), we do agree that the ARS code
    structure should be revised aild updated to meet current needs. This
    decision was made by the Office of Finance and Budget over a year ago.
    However, due to staff shortages and other workload requirements this
    revision could not be accomplished. A review of the coding structure is
    now scheduled as the first Total Quality Management project in the
    Office of Finance and Budget. This is scheduled to be accomplished in
    time to be implemented at the beginning of fiscal year 1992.
    Estimated completion date- September 30, 1991.

    3. Recommendation

    The mission and function statement for OFB (lTC Directive 1021, Office
    of Finance and Budget, paragraph 10) states that OFB is responsible for
    maintaining position controls. OFB's role in this significant area is not
    clear in light of the responsibilities delegated to cost center managers.
    Consideration should be given to more clearly defining what is expected
    of the OFB Director in discharging his duties related to position controls.
    Response
    AGREE
    While cost center managers are responsible for remaining within the
    resources allocated to them, the mission and function statement for the
    Office of Finance and Budget states that OFB is responsible for
    maintaining position controls. The mission and function statement for the
    Office of Finance and Budget will be reviewed and revised, if applicable,
    to be in agreement with the directive on cost center manager
    responsibilities.
    Estimated completion date - September 30, 1991.
                                         "'




•




                                         7
                                               OP-N-063


UNITED STATES INTERNATIONAL TRADE COMMISSION

                    WASHINGTON. D.C. 20436
October 3, 1990

MEMORANDUM
TO:       Director, Office of Administration
FROM:     Director, Office of Operations
SUBJECT: Comments on the Inspector General's Draft Report,
         "Review of Budget Formulation and Execution"
In your memorandum (AD-N-567) of September 25, 1990,
concerning the draft report, you invited my comments on two
issues of the Inspector General's plan and recommendations as
they apply to the Director of Operations.
    "FINDING #3 (Page 6) and Item #3 (Page 9). Travel
authorizations (ITC Form 005) for Commissioner travel are, on
occasion, charged to travel funds allotted to the Office of
Operations, without the appropriate cost center manager's
certificaton. USITC Directive.2103, paragraph Sc, and the
Travel Handbook (USITC Directive 2301.1, paragraph AI),
require cost center manager certification of travel
authorizations. Three of 40 travel authorizations tested
were for Commissioner travel charged to the Office of
Operations funds with no indication on the authorization form
that the applicable cost center manager had been notified.
Cost center managers must have control over the funds they
have been allotted. Without this control, the authorizations
to expend funds could exceed the fund balance. This
procedure could result in overexpenditure of funds
appropriated to ITC.w
    •3. The Commissioners' offices should coordinate the
processing of travel authorizations with the appropriate cost
center manager. This coordination would apprise the cost
center manager of planned travel and would ensure that funds
are available before travel is initiated."
    Comment. I concur with the thrust of the finding that
the Director of Operations be informed of the decisions of
each Commissioner and/or the Commissioner's staff assistants
to travel on fund accounts allocated to the Director of
Operations. This, however, does not prevent the threat of
    OP-N-063, 10/03/90--Paqe 2

    overexpenditure of travel funds allocated to the Director of
    Operations. The General Counsel has advised me that I have
    no authority to deny a Commissioner or a Commissioner's staff
    assistant the right to charge the Office of Operations'
    travel funds account for travel if the Commissioner
    determines the travel is important in the conduct of the
    Commissioner's responsibilities. The implication of the
    Inspector General's finding is that I have a degree of
0
    control of the funds that are allocated (in respect to
    Commissioners), which I do not. If such authority were
    nominally granted to me, including the right to deny a
    Commissioner or his/her staff travel on my account if I felt
    funds were unavailable or the trip was not relevant to the
    work of the Office of Operations, it is clear I would not
    have the support of the Chairman, the General Counsel, or any
    Commissioner for such action.
        My position in respect to Commissioners' travel,
    therefore, is not a question of control but a question of
    information. That is, I could inform a Commissioner if I
    knew of his/her travel plans, of the risks that his travel
    expenses might jeopardize the conduct of other important work
    which might oe considered by him in making a decision whether
    to travel or not. ·
        "Budget Execution and Funds Control, Item #1 {Page 10}.
    The organizational level designated as cost centers
    throughout lTC does not appear consistent with the level at
    which funds are expended. Although the current cost center
    arrangement is effective, consideration should be given to
    designating lower organizational units, such as the office
    director level as cost center managers. As. a minimum, Office
    of Operations funds.should be suballocated to those at the
    office director level, who have the responsibility for
    authorizing the use of lTC resources and, correspondingly,
    should have the authority to administer the funds related to
    this responsibility."
        Comment. I do not concur with the draft finding. The
    Inspector General's recommendation gives no benefits for this
    proposed delegation of authority. I see several costs. The
    subdelegation would further weaken the information system
    that I need for the general management of the Office of
    Operations. I currently review and approve all funds that
    relate to new positions, hiring, promotions, travel, and
    training. Through this review and approval process, I ensure
OP-N-063, 10/03/90--Paqe 3

 to the degree feasible a fairness in the conduct of personnel
 policies within the Offices of Operations, determine
 reasonable levels of effort in respect to the conduct of the
Commission's work plans, and reallocate on a temporary basis
personnel, travel, and training funds where necessary. W~re
all the funds subdelegated to the operating offices, some of
the directors would feel the necessity to consume all the
funds available in order to avoid sharing unspent funds with
other operational units. Further,· some subordinate offices
would put excessive focus on the management of the funds and
budget process, rather than focusing on the completion of the
assigned studies. Such a delegation could lead to the
allocation of even larger portions of our staff service to
manage a decentralized budget system. The work products of
the Office of Operations are, in many cases, the result of
team efforts. I need to have the budget authority to create
teams and to control travel, training, and personnel actions
to ensure swift corrections of problems when they occur. The
Inspector General's comment that the office directors
reporting to me have the responsibility of authorizing the
use of lTC resources is not completely true. They have the
authority to propose actions; I have the authority to dispose
for my office, subject to the overall authority of the
Chairman and·the Commission. This relationship should
continue without change.



J2L£~
Charles W. Ervin
                                                AD-N-592



UNITED STATES INTERNATIONAL TRADE COMMISSION

                        WASHINGTON. DC 20436




October 4, 1990

MEMORANDUM

TO:          The General Counsel
FROM:        Dlrector. Office of   Adminfstrati~~~~
SUBJECT: Review of Inspector General's draft report •Review of
         Budget Formulation and Executive•
Contained in the subject draft report is a finding and
recommendation that the Commissioners should not change travel
expenses to a cost center which has been assigned to the Director.
Office of Operations (see pages 6 and 9 of the attached draft
report). In preparation of a·reply to the Inspector General (after
review by the Commission and the Acting Chainman) I asked
Charles Ervin to comment on this finding and recommendation. His
reply is attached (Memorandum OP-N-D63) which in part references
advice you have given to him on this matter Csee top of page 2).
Before incorporating Charles' comments into a reply for the
Commission's review I would like to have your confi~tion that he
has •no authority to deny a Commnssioner or a Commissioner's staff
assistant the right to charge the Office of Operations' travel    .
funds account for travel 1f the Commissioner determnnes the travel
1s important in the conduct of the Commissioner's .
responsib111tfes.•
I would appreciate your response by the close of business
October· 9. 1990. Please call me if you have any questions.
Attachments
cc: Director of Operations
    Director, Office of Finance and Budget
      ...

                                                   PRIVILEGED


                                                                  October 11, l nl£..
                                                                                ;eN
                MEMORANDUM
                                                                  GC-N-265
                TO:          DIRECTOR, OFFICE OF ADMINISTRATION
                FROM:        GENERAL COUNSEL   1.){6>
                RE:          INQUIRY ABOUT INSPECTOR GENERAL'S DRAFT BUDGET REPORT

a
                You have sought my advise concerning a statement contained in Charles Ervin's
                comments on the Draft IG Budget Report •
.
...         ~




9
                I vaguely recall a conversation with Charles in which we discussed whether he
                could refuse to authorize Commissioner travel in connection with a Section·-332
                investigation. I do not recall the exchange going to the specific question of
                expenditure of Operations' travel funds account.
                It is likely that I made several points to Charles. First, the Commissioners
                are the ultimate finders of fact and decision makers in all Commission
                investigations. It is up to the individual Commissioners to determine the
                appropriate content of an investigative record. While the Commission has
                delega~ed much of the fact-gathering authority to the Office of Operations,
                each Commissioner has the right to request the information he or she believes .
                to be necessary to render his or her judgement. This may entail the
                Commissioner meeting with members of the public or touring facilities.
                Because a Commissioner's choice of information upon which to base his or her ·
                decision is a matter of substance, it would certainly be difficult for a
                member of the Senior Staff to tell a Commissioner that he or she cannot gather
                certain information. Thus, it has been the practice of the Senior Staff to be
                responsive to requests for information from individual Commissioners unless
                such request is inconsistent with some general rule of the agency. (An example
                of information-gathering which would violate some other rule would be request
                by a Commissioner for the staff to gather information after the Staff Report
                has been approved and the record closed. In such cases, the Commission as a
                whole would have to vote to reopen the record, as it has done upon occasion.)
                It follows that it would also be difficult for a member of the Staff to
                decline to permit a Commissioner to tour a facili~ or to travel in order to
9
                question industry representatives.
                Moreover, Commissioners alone approve their own travel and that of their
                staffs. .bA 19 U.s.c. 1331(c). If the Chairman cannot disapprove
                Commissioner travel, it follows that a member of the Senior staff is not
                empowered to disapprove Commissioner-travel. Unresolved is the question of
                whether a majority of the Commission, in adopting the budget, could
                affirmatively decline to provide any funds or to limit funds for Commdssioner
                investigative travel. This question need not be answered here; the Commission
                majority has attempted to impose no such limitation on the Commission budget
                to date.

                This does not answer the question of whether funding for Commissioner
                investigative travel necessarily must come from the Operations travel budget.
In the past, it has been the practice of Commissioners to draw on the Office
of Operations travel funds when their travel was directly related to the
conduct of a specific investigation. By reason of that practice, it could be
said that the funds allocated by the Commission budget to that fund were
understood to include funds for Commissioner investigative travel. The most
that could be said is that the Commission was aware of the use of those funds
for this purpose and did not object to that use in allocating money to the
Office of Operations travel fund in the current budget.
